                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                       MEMORANDUM OF INVESTIGATION

 Case Number: 111120047                                                                       Page 1 of 1




                                                Closeout Memorandum

          OIG received an allegation stating that a PI 1 had listed collaborators2 on an unfunded NSF
                    3
          proposal who had not in fact agreed to be listed. We determined that there was some merit to
          the allegation, and that it would be appropriate to send the PI a Questionable Research Practices
          letter in order to warn him against engaging in this type of activity in the future.

          This case is closed, and no further investigative action is necessary.




                                          Investigator                                    Date
Affix your signature;
Print your name; insert
date MOl completed.                                                    5/30/12

NSF OIG Form 4 ( 11/02)
